No.
IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2021
_______________________________________

MICHAEL EUGENE WYATT, Petitioner,
v.
JOHN SUTTON, Respondent
_______________________________________

ON PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT
_______________________________________

APPENDIX TO PETITION FOR WRIT OF CERTIORARI
________________________________________

MARY E. POUGIALES
1 Blackfield Drive, # 111
Tiburon, CA 94920
(415) 847-6379
Counsel of record for Petitioner

INDEX TO THE APPENDICES
APPENDIX A: Ninth Circuit Court of Appeals Order Denying
Petition for Rehearing and Rehearing En Banc, Wyatt v. Sutton, Case No.
20-15203, filed February 1, 2021.
APPENDIX B: Unpublished Opinion of the Ninth Circuit Court of Appeals
affirming denial of habeas petition, Wyatt v. Sutton, Case No. 20-15203,
filed December 24, 2020.
APPENDIX C: United States District Court, Northern District of California,
Order Denying Petition for Writ of Habeas Corpus, Wyatt v. Sutton, Case
No. 18-cv-06588, filed December 5, 2019.
APPENDIX D: California Court of Appeal, First Appellate District, Opinion
affirming Judgment and Sentence, People v. Wyatt, Case No. A144872, filed
April 5, 2018.

APPENDIX A

Ninth Circuit Order Denying Petition for Rehearing and Rehearing En Banc
Michael Eugene Wyatt v. John Sutton
Case No. 20-15203
filed February 1, 2021

Case: 20-15203, 02/01/2021, ID: 11987726, DktEntry: 39, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
FEB 1 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

MICHAEL EUGENE WYATT,
Petitioner-Appellant,
v.
JOHN SUTTON,

No.

20-15203

D.C. No. 4:18-cv-06588-PJH
Northern District of California,
Oakland
ORDER

Respondent-Appellee.
Before: W. FLETCHER, IKUTA, and VANDYKE, Circuit Judges.
The panel judges have voted to deny the appellee’s petition for panel
rehearing and rehearing en banc. The full court has been advised of the petition for
rehearing en banc and no judge has requested a vote on whether to rehear the
matter en banc. Fed. R. App. P. 35.

Appellee’s petition for panel rehearing and

rehearing en banc, (ECF 38) filed January 6, 2021, is DENIED.

APPENDIX B

Ninth Circuit Order Affirming District Court Denial of Habeas Petition
Michael Eugene Wyatt v. John Sutton
Case No. 20-15203
filed December 24, 2020

No. 20-15203
UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

Wyatt v. Sutton
Decided Dec 24, 2020

No. 20-15203

Wyatt's contention that the state court
unreasonably applied Jackson v. Virginia, 443
U.S. 307, 326 (1979), or reached an unreasonable
determination of the facts, cannot overcome the
double deference we afford to insufficient
evidence claims on habeas review of state court
convictions under the Antiterrorism and Effective
Death Penalty Act of 1996 ("AEDPA"), Pub. L.
No. 104-132, 110 Stat. 1214. See Johnson v.
Montgomery, 899 F.3d 1052, 1056-57 (9th Cir.
2018) ("In addition to Jackson's already
deferential standard .... we must conclude that the
state court's determination that a rational jury
could have found each required element proven
beyond a reasonable doubt was not just wrong but
was objectively unreasonable."); Coleman v.
Johnson, 566 U.S. 650, 656 (2012) ("[T]he only
question under Jackson is whether that finding
was so insupportable as to fall below the threshold
of bare rationality."). If the record supports
conflicting inferences, we "must presume—even if
it does not affirmatively appear in the record—that
the trier of fact resolved any such conflicts in
favor of the prosecution, and must defer to that
resolution." Jackson, 443 U.S. at 326.

12-24-2020
MICHAEL EUGENE WYATT, PetitionerAppellant, v. JOHN SUTTON, RespondentAppellee.

NOT FOR PUBLICATION
D.C. No. 4:18-cv-06588-PJH MEMORANDUM*
Appeal from the United States District Court for
the Northern District of California
Phyllis J. Hamilton, Chief District Judge,
Presiding Submitted December 11, 2020** San
Francisco, California Before: W. FLETCHER,
IKUTA, and VANDYKE, Circuit Judges.
* This disposition is not appropriate for

publication and is not precedent except as
provided by Ninth Circuit Rule 36-3.
** The panel unanimously concludes this case

is suitable for decision without oral
argument. See Fed. R. App. P. 34(a)(2).

2

Petitioner Michael Wyatt appeals the district
court's denial of his habeas petition under 28
U.S.C. § 2254. We have jurisdiction under 28
U.S.C. §§ 1291 and 2253, and we review the
district court's decision de novo. Boyer v.
Belleque, 659 *2 F.3d 957, 964 (9th Cir. 2011). We
affirm.1
1 Because the parties are familiar with the

facts, we recite them here only as
necessary. --------

3

On habeas review of Jackson claims, "we ... look
to state law only to establish the elements of the
crime and then turn to the federal question of
whether the state court was objectively
unreasonable in concluding that sufficient
evidence supported *3 its decision." Johnson, 899
F.3d at 1056 (cleaned up) (citation omitted). In
California, a defendant commits first-degree
murder if the killing was willful, premeditated,
and deliberate. See Cal. Penal Code § 189; People
v. Sandoval, 363 P.3d 41, 64 (Cal. 2015).
1

Wyatt v. Sutton

No. 20-15203 (9th Cir. Dec. 24, 2020)

Specifically, "'[d]eliberation' refers to careful
weighing of considerations in forming a course of
action; 'premeditation' means thought over in
advance." Sandoval, 363 P.3d at 64 (quoting
People v. Koontz, 46 P.3d 335, 361 (Cal. 2002)).
California courts generally look to three nonexhaustive factors as guidelines in determining
premeditation and deliberation: planning, motive,
and manner of killing. Sandoval, 363 P.3d at 65.

4

Here, the state court reasonably determined that
Wyatt's first-degree murder conviction is
supported by sufficient evidence. With respect to
preexisting motive, it was not unreasonable for the
jury to conclude that Wyatt's increasingly violent
attempts to quiet his unarmed, mentally
handicapped roommate James Nobles evinced a
motive to accomplish what Wyatt had previously
and repeatedly asked for: peace and quiet free
from Nobles's "nagging." See People v. Boatman,
221 Cal. App. 4th 1253, 1268 (2013). With respect
to the manner of killing, a jury could have
reasonably determined that Wyatt considered his
previous unsuccessful attempts at quieting Nobles
and, instead of continuing to punch Nobles or
throw objects at him, deliberately resorted to
killing him by stabbing him in the chest to silence
him. Wyatt's decision to grab, and then plunge, a
knife into Nobles's chest, multiple *4 times, could
also reasonably reveal "a method sufficiently
'particular and exacting' to warrant an inference
that [Wyatt] was acting according to a
preconceived design" of quieting his roommate
once and for all. People v. Thomas, 828 P.2d 101,
115 (Cal. 1992); see also People v. Anderson, 447
P.2d 942, 949 (Cal. 1968) (surveying state law and
noting that "directly plunging a lethal weapon into
the chest evidences a deliberate intention to kill").
The jury could also have reasonably concluded
that Wyatt's additional actions—not immediately
seeking aid after he stabbed Nobles, waiting
twelve hours with Nobles's corpse before dumping
the body at a time least likely to be seen, and lying
to others (including the police)—all further evince
that Wyatt's conduct was not merely the product of

rash impulse. Cf. Boatman, 221 Cal. App. 4th at
1269 ("Defendant's actions immediately afterward
—directing Brenton to call 911 and attempting to
resuscitate Marth and seek medical aid—are not
the actions of an executioner."). Likewise, it
would be reasonable for the jury to infer that
Wyatt's previous murder of a friend after an
altercation also supported the conclusion that he
carefully weighed the considerations of stabbing
Nobles in advance of doing so. See People v.
Steele, 47 P.3d 225, 234 (Cal. 2002) ("[T]he more
often one kills, especially under similar
circumstances, the more reasonable the inference
the killing was intended and premeditated.").

5

While Wyatt contends that "[a]ll that was proven
here was a 'mere unconsidered or rash impulse'
that led to a spontaneous and frenzied lashing out
with *5 a knife," the controlling question under
AEDPA's double deference standard is whether
the state court's different conclusion was
objectively unreasonable. Johnson, 899 F.3d at
1056-57. As discussed above, it was not. And
Wyatt's argument that state law precludes the
jury's inferences and conclusions fails because
"the minimum amount of evidence ... require[d] to
prove the offense is purely a matter of federal
law," not state law. Coleman, 566 U.S. at 655.
The state court's decision was a reasonable
application of the law and based on a reasonable
determination of the facts, and therefore the
district court properly denied Wyatt's federal
habeas petition. See Moses v. Payne, 555 F.3d
742, 751 (9th Cir. 2009); 28 U.S.C. § 2254(d).
AFFIRMED.

2

Wyatt v. Sutton

No. 20-15203 (9th Cir. Dec. 24, 2020)

3

APPENDIX C

United States District Court, Northern District of California
Order Denying Habeas Petition
Michael Eugene Wyatt v. John Sutton
Case No. 18-cv-06588
filed December 5, 2019

Case No. 18-cv-06588-PJH
UNITED STATES DISTRICT COURT NORTHERN DISTRICT OF CALIFORNIA

Wyatt v. Sutton
Decided Mar 4, 2019

Case No. 18-cv-06588-PJH
03-04-2019
MICHAEL EUGENE WYATT, Plaintiff, v. JOHN
SUTTON, Defendant.
PHYLLIS J. HAMILTON United States District
Judge

ORDER FOR RESPONDENT TO
SHOW CAUSE
Petitioner, a California prisoner, filed a pro se
petition for a writ of habeas corpus pursuant to 28
U.S.C. § 2254. The amended petition was
dismissed with leave to amend and petitioner has
filed a second amended petition.

BACKGROUND
Petitioner was sentenced to 56 years to life in
prison after being found guilty of first-degree
murder. People v. Wyatt, No. A144872, 2018 WL
1633816, at *5 (Cal. Ct. App. April 5, 2018). His
appeals were denied by the California Court of
Appeal and California Supreme Court. Docket No.
1 at 3. A pro se habeas petition to the California
Supreme Court was also denied. Docket No. 19 at
7-19.
In the California Court of Appeal petitioner
contended that: (1) there was insufficient evidence
of premeditation and deliberation for first degree
murder; (2) the court erroneously admitted
evidence of his prior conviction for voluntary
manslaughter; (3) the court should have instructed
the jury not to use the evidence of the prior
homicide unless it made a preliminary finding that
the homicide was committed with malice; (4) the

2

court should have instructed the jury on selfdefense and imperfect self-defense; (5) the
prosecutor committed misconduct by saying that
manslaughter was "murder with an *2 excuse;"
and (6) cumulative error. Wyatt, 2018 WL
1633816, at *1. The claims presented in the pro se
petition to the California Supreme Court are
difficult to understand but involve ineffective
assistance of counsel. Docket No. 19 at 7-19.

DISCUSSION
STANDARD OF REVIEW
This court may entertain a petition for writ of
habeas corpus "in behalf of a person in custody
pursuant to the judgment of a State court only on
the ground that he is in custody in violation of the
Constitution or laws or treaties of the United
States." 28 U.S.C. § 2254(a); Rose v. Hodges, 423
U.S. 19, 21 (1975). Habeas corpus petitions must
meet
heightened
pleading
requirements.
McFarland v. Scott, 512 U.S. 849, 856 (1994). An
application for a federal writ of habeas corpus
filed by a prisoner who is in state custody pursuant
to a judgment of a state court must "specify all the
grounds for relief available to the petitioner ...
[and] state the facts supporting each ground." Rule
2(c) of the Rules Governing § 2254 Cases, 28
U.S.C. § 2254. "'[N]otice' pleading is not
sufficient, for the petition is expected to state facts
that point to a 'real possibility of constitutional
error.'" Rule 4 Advisory Committee Notes
(quoting Aubut v. Maine, 431 F.2d 688, 689 (1st
Cir. 1970)).
LEGAL CLAIMS

1

Wyatt v. Sutton

3

Case No. 18-cv-06588-PJH (N.D. Cal. Mar. 4, 2019)

The first two petitions were dismissed with leave
to amend because it was not entirely clear the
claims petitioner had presented. Liberally
construing the second amended petition, petitioner
asserts that: (1) the trial court erred by failing to
instruct the jury on self-defense and imperfect
self-defense; (2) there was insufficient evidence of
premeditation and deliberation for first degree
murder; and (3) ineffective assistance of counsel
for failing to object to improper jury instructions
and failing to present a claim of self-defense.
These claims are sufficient to require a response.
If these are not the claims petitioner wishes to
proceed with, he must inform the court within
fourteen-days. *3

If petitioner wishes to respond to the answer, he
shall do so by filing a traverse with the court and
serving it on respondent within twenty-eight (28)
days of his receipt of the answer.
4. Respondent may file a motion to dismiss on
procedural grounds in lieu of an answer, as set
forth in the Advisory Committee Notes to Rule 4
of the Rules Governing Section 2254 Cases. If
respondent files such a motion, it is due fifty-six
(56) days from the date this order is entered. If a
motion is filed, petitioner shall file with the Court
and serve on respondent an opposition or
statement of non-opposition within twenty-eight
(28) days of receipt of the motion, and respondent
shall file with the court and serve on petitioner a
reply within fourteen (14) days of receipt of any
opposition.

CONCLUSION
1. All claims are dismissed except the claims
discussed above. If these are not the claims
petitioner wishes to proceed with, he must inform
the court within fourteen-days.
2. The clerk shall serve by regular mail a copy of
this order and the petition (Docket No. 19) and all
attachments thereto on respondent and
respondent's attorney, the Attorney General of the
State of California. The clerk also shall serve a
copy of this order on petitioner.
3. Respondent shall file with the court and serve
on petitioner, within fifty-six (56) days of the
issuance of this order, an answer conforming in all
respects to Rule 5 of the Rules Governing Section
2254 Cases, showing cause why a writ of habeas
corpus should not be granted. Respondent shall
file with the answer and serve on petitioner a copy
of all portions of the state trial record that have
been transcribed previously and that are relevant
to a determination of the issues presented by the
petition.

4

5. Petitioner is reminded that all communications
with the court must be served on respondent by
mailing a true copy of the document to
respondent's counsel. Petitioner must keep the
court informed of any change of address and must
comply with the court's orders in a timely fashion.
Failure to do so may result in the dismissal of this
*4 action for failure to prosecute pursuant to
Federal Rule of Civil Procedure 41(b). See
Martinez v. Johnson, 104 F.3d 769, 772 (5th Cir.
1997) (Rule 41(b) applicable in habeas cases).
IT IS SO ORDERED. Dated: March 4, 2019
/s/_________
PHYLLIS J. HAMILTON
United States District Judge

2

APPENDIX D

California Court of Appeal
Opinion Affirming Judgment and Conviction
People v. Michael Eugene Wyatt
Case No. A144872
filed April 5, 2018

A144872
COURT OF APPEAL OF THE STATE OF CALIFORNIA FIRST APPELLATE DISTRICT DIVISION FIVE

People v. Wyatt
Decided Apr 5, 2018

I. FACTS AND PROCEDURAL
HISTORY

A144872
04-05-2018
THE PEOPLE, Plaintiff and Respondent, v.
MICHAEL EUGENE WYATT, Defendant and
Appellant.
NEEDHAM, J.

NOT TO BE PUBLISHED
OFFICIAL REPORTS

IN

California Rules of Court, rule 8.1115(a),
prohibits courts and parties from citing or
relying on opinions not certified for publication
or ordered published, except as specified by
rule 8.1115(b). This opinion has not been
certified for publication or ordered published
for purposes of rule 8.1115. (Alameda County
Super. Ct. No. CH54361)
Michael Eugene Wyatt appeals from a judgment
of conviction and sentence imposed after a jury
found him guilty of first degree murder. He
contends (1) there was insufficient evidence of
premeditation and deliberation for first degree
murder; (2) the court erroneously admitted
evidence of his prior conviction for voluntary
manslaughter; (3) the court should have instructed
the jury not to use the evidence of the prior
homicide unless it made a preliminary finding that
the homicide was committed with malice; (4) the
court should have instructed the jury on selfdefense and imperfect self-defense; (5) the
prosecutor committed misconduct by saying that
manslaughter was "murder with an excuse;" and
(6) cumulative error. We will affirm the judgment.

2

An information charged Wyatt with the 2012
murder of James Nobles (Pen. Code, § 187) and
alleged that he personally used a deadly weapon in
the commission of the offense (Pen. Code, §
12022, subd. (b)(1)). The information also alleged
that Wyatt had a prior serious felony conviction
for his 1995 voluntary manslaughter of Titus
Crowder in 1995 for purposes of Penal Code
section 667, subdivisions (a) and (e). *2
A. Prosecution Case
On February 8, 2012, the Alameda County
Sheriff's office received a report that a dead body
had been discovered near the Bay Area Rapid
Transit (BART) tracks in Hayward. Detective
Joshua Armijo of the Alameda County Sheriff's
Office responded to the scene and observed the
body of an African-American male at the bottom
of a dirt embankment, near the support pillar of
the elevated BART tracks. The body and clothing
were relatively clean, leading Armijo to conclude
that the victim had been killed elsewhere. The
victim had two incised puncture wounds on his
left chest, a swollen area on his left temple, a
blackened eye, jawline swelling, and blood from
his nostrils.
1. Investigation
The police did not find identification or personal
effects on the body, but used fingerprints to
identify the victim as James Nobles. Officers
contacted Nobles's cousin, Ioma Nobles. She told
them that Nobles had been living with "Mike" in
Hayward. Although she did not have the exact
1

People v. Wyatt

A144872 (Cal. Ct. App. Apr. 5, 2018)

address, she gave officers Mike's telephone
number, which she would call if she wanted to
reach Nobles. Police traced the phone number to
Wyatt, who lived on Hampton Road,
approximately a quarter-mile from where Nobles's
body was discovered. They also determined this to
be Nobles's last known address.1

and mumble things that did not make sense. Even
then, however, Nobles was not violent, and Ioma
had never seen him behave aggressively or assault
anyone.
4. Wyatt's Confession
Wyatt surrendered to police on February 12, 2012.
His shoes and pants had apparent bloodstains. He
waived his Miranda rights and agreed to be
interviewed by Detective Armijo and Alameda
County Sheriff's Sergeant Dave Dixon. (See
Miranda v. Arizona (1966) 384 U.S. 436.) A
redacted recording of the interview was played for
the jury.

1 Meanwhile, Ioma attempted to call Nobles;

Wyatt answered and said Nobles was at
church but he would tell Nobles she called.
(Because Ioma Nobles and James Nobles
have the same last name, we refer to Ioma
by her first name for clarity, without
disrespect.)

3

Police obtained a warrant to search Wyatt's
apartment on February 10, 2012. Officers
executing the warrant observed blood drops inside
the doorway and bloodstains on a mattress.
Forensic evidence specialists found trace amounts
of blood throughout the apartment. The search
lasted approximately 12 hours until the morning of
February 11; Wyatt was not there.

Wyatt told the officers that he was self-employed
and took care of people in their homes. Years
earlier he became friends with Nobles, who moved
in with him in mid-2010. Nobles usually used his
disability checks to pay the rent on the apartment.
Wyatt denied they had any romantic involvement,
but acknowledged that Nobles may have been
interested in one.

2. Forensic Pathologist

Wyatt generally did not have any conflict with
Nobles. However, sometimes Nobles would "go
off the deep end" and talk to himself, behave in a
childlike manner, and at times urinate on himself.
Wyatt would let him act out, and Nobles would
come back around. Most of the time, "[Nobles]
was a gentle, easy-goin' guy regardless of what the
circumstances," "he would not harm a fly," and he
was "never a threatening person."

Dr. Thomas Rogers conducted an autopsy on
Nobles's body. He observed several blunt force
injuries, including a bruise to the right eye, a
laceration on the right side of the nose, and a
bruise on the right arm. There were superficial
incised wounds on Nobles's *3 face, neck, and
lower right leg, as well as six deeper stab wounds
- two in the chest, one in the neck, one near the
jawline, and two in the leg - that had been inflicted
recently. The two chest wounds penetrated his left
lung and caused life-threatening injuries. Dr.
Rogers opined that multiple stab wounds and
incised wounds were the cause of Nobles's death.
3. Ioma's Testimony
Ioma testified that Nobles was mentally disabled
and could be "slow" and "childish." He took
medications to control his symptoms, but had
trouble remembering to take them. When he did
not take his medication, he would behave oddly

4

Wyatt claimed he did not know Nobles's
whereabouts and had not done anything to him.
After police said they could prove that Nobles was
killed in Wyatt's apartment, *4 however, Wyatt
admitted to killing Nobles during a fight. He
claimed that Nobles "flipped out," Wyatt tried to
subdue him, and "the next thing you know, it just
got outa hand and I lost it."
Wyatt recounted the events as follows. Two weeks
before the homicide, Nobles started acting out
consistently. Nobles acted out so much - every day
with constant movement or incessant babbling -

2

People v. Wyatt

A144872 (Cal. Ct. App. Apr. 5, 2018)

that Wyatt asked him to move to a board and care
home. Nobles did so for a while, but Wyatt let him
return to the apartment.

Around 2:00 or 2:30 that afternoon, things "came
to boil." Wyatt was watching basketball on
television. Nobles "started actin' crazy," and Wyatt
asked for quiet. Nobles continued with his
"madness" and "just kept on goin' and kept on and
just kept on goin."

Around 2:00 a.m. on Sunday, February 5, 2012,
Wyatt received a text from a male friend. Nobles
knew it was from a man, and he became upset.
Nobles started breathing hard and was constantly
moving, making noises, and "acting real bad."
Wyatt asked Nobles to "chill out," to no avail.
Wyatt repeatedly asked him to "just take it easy"
and lie down, but Nobles did not stop. Wyatt told
Nobles it would be best for him to leave at the end
of the month, "[b]ecause this is gettin' outa hand
here . . . [a]nd you constantly makin' it
uncomfortable where I'm livin' at." Nobles
"rant[ed] and rave[d]." Wyatt was unable to sleep
during Nobles's disruption, which continued until
around 6:00 a.m. on Sunday.2

Wyatt duct-taped Nobles's hands together, ducttaped his ankles, and put duct-tape over his mouth.
He also put Nobles in a corner and placed a
mattress over him. Nobles broke free, untaping his
hands and mouth. Wyatt unwrapped his ankles,
but Nobles "started back at his theatrics again."
Wyatt told Nobles it was best for him to "leave
next month," but Nobles said he did not want to.
Nobles's nagging persisted. Wyatt grabbed him by
the shoulders and shook him; Nobles flailed
around, " 'doin' his little strikin' and, you know,
kickin,' " and refused to "act like a civilized
person." In Wyatt's words, "it was just a naggin'
thing" and "it was just pressin' me and then it blew
me up." Wyatt grabbed a container of clear blue
cleaning liquid and threw the liquid in Nobles's
face. Nobles swallowed some of it, and it began to
run out of his nose.

2 At one point, Wyatt indicated that the text

and

subsequent

hours

of

disruption

occurred between approximately 2:00 a.m.
and 6:00 a.m. on Sunday. At another point,
he seemed to indicate it occurred on a
Thursday. The parties describe the event as
occurring on Sunday, which fits with the
rest of Wyatt's narrative. Whether it
happened on Thursday or Sunday, our
ruling would be the same.

Wyatt awoke around 9:00 a.m. on Sunday. Nobles
also awoke and was fine for a while, but then
restarted his barrage of noise and movement.
Wyatt repeatedly asked Nobles to calm down, but
Nobles didn't relent, which "got [Wyatt's] nerves
in a frenzy."

5

Wyatt described Nobles's behavior as "nagging,"
explaining it as follows: "Words, there was a lot of
movements . . . constant - he would get up and
then he would write on the floor and then he
would kick. It was just a lot of - I - I mean it may
seem petty. You know, but it was just a lot of
irritation. Just - just talking and you know and just
moving around. . . . It just didn't - it just didn't let
up." *5

6

Nobles "seemed like he was just [losin'] it."
Nobles kicked and slapped at Wyatt - which Wyatt
agreed was Nobles defending himself - and Wyatt
punched Nobles in the chin. Nobles came at Wyatt
again, and Wyatt punched him in the right eye.
Nobles "went to the bathroom" and then "jumped
and [] attacked again." Nobles had no weapon, but
he was "tryin' to swing and tryin' to grab." Wyatt
claimed that Nobles "flipped out" and it "scared"
him, although he acknowledged that Nobles never
threatened him or approached him in a threatening
manner.3 *6
3 Wyatt told officers that Nobles did not

threaten him, but he "felt threatened" when
Nobles snapped and Wyatt realized he was
going to keep making noise and acting out.
"Q1: Was there ever a point where he
threatened

you

during

this

incident

Michael? [¶] A: No. [¶] Q1: So he never
threatened you? [¶] A: No he - he never

3

People v. Wyatt

A144872 (Cal. Ct. App. Apr. 5, 2018)

believed Nobles was dead; he attempted chest
compressions, but he did not consider calling 911.
Wyatt knew, however, that he was in the wrong.

threatened me. [¶] Q1: You never felt
threatened by his behavior? [¶] A: No, not
until he just - just went - just completely
that night. You know he . . . [¶] Q1: No,

Confronted with the fact that Nobles had six stab
wounds rather than two, Wyatt initially maintained
he stabbed Nobles only twice, but eventually
agreed he had reached a boiling point and might
not have realized all that he did. He acknowledged
that a "few times in the past" he had become so
angry that he did not remember what he was
doing.

that's what I'm talking about. The - that the night of this incident. [¶] A: Mm-hm.
[¶] Q1: Was - was there ever a point where
you felt threatened by [Nobles]? [¶] A: No,
until he just - like I said until that particular
moment where he just snapped. [¶] Q1:
And when he snapped . . . [¶] A: That's
when I felt threatened . . . [¶] Q1: Tell us
why you felt threatened Michael? [¶] A:

Roughly 12 hours after he killed Nobles, Wyatt
put Nobles's corpse into one of the apartment
building's garbage cans and wheeled it over to the
BART tracks, where he dumped it around 3:00
a.m. He also burned some clothing and household
items to get rid of the evidence, and threw the
knife down a gutter near the apartment. The next
day, Wyatt left the apartment and did not return
until the search warrant had been executed.

'Cause I never sel- I never seen him in that
kind of outfit before. [¶] Q1: But what
about

his

behavior

made

you

feel

threatened? [¶] A: Before? [¶] Q1: At that
instant? [¶] A: It seemed like it was just
really to the point where he was just
unstoppable. You know it was, uh - he - he
- regardless of what I tried to do - and he
was just gonna be his way - that way,
regardless of how anybody else felt. [¶]
Q1: But what was he doing? [¶] A: Oh it

Wyatt admitted to the officers that he "went too
far" and stated repeatedly that Nobles did not
deserve what happened to him. When asked if he
premeditated the homicide, Wyatt responded "No,
no, no, I didn't."

was just - just a lot of noise, talking and
rambling and- and - and just going back,
like I say writing in - writing on the floor,
writing all these little notes and this and
that and . . . [¶] Q1: Did he ever approach
you in a threatening manner? [¶] A: No he
didn't. [¶] Q1: Okay what - how far away
were you guys when he was doing this
writing on the floor . . . [¶] A: I was just
sitting - I was just sitting in the bunk
myself. Watching - watching TV, trying to
just - you know trying to see if I can block
it out. [¶] Q1: Okay so he never threatened

7

Police later found the knife Wyatt used to kill
Nobles in the storm drain system, as Wyatt had
described. Police also found duct tape and the
clear blue cleaning liquid in Wyatt's apartment, as
well as the garbage can used to transport Nobles's
dead body. *7
5. Evidence of Wyatt's Killing of Crowder in 1995

you verbally? [¶] A: No he done - you
know [Nobles] was . . . was never a
threatening person."

Wyatt grabbed a small "folding-knife" and, in
"panic" and "rage," stabbed Nobles twice in the
chest. Wyatt heard a "poof" as the air exited
Nobles's lungs. Nobles fell down, voided his
bowels and bladder, and stopped moving. Wyatt

In 1995, the body of Titus Crowder, an AfricanAmerican man who lived in an Oakland care home
for men suffering from HIV, was found face down,
bloody, and lifeless in his living room. Crowder
was transported to a hospital and pronounced
dead. Officers had recovered nine bullet casings
near the body. They also found mail and other
paperwork bearing Wyatt's name, as well as
photographs belonging to Wyatt in a bedroom
dresser drawer.

4

People v. Wyatt

A144872 (Cal. Ct. App. Apr. 5, 2018)

About three weeks after the homicide, Wyatt was
arrested and interviewed by David Politzer, at the
time a sergeant with the Oakland Police
Department. Wyatt told Politzer that he did not
have a romantic relationship with Crowder but
they were friends. They had not had previous
arguments, but Crowder was "agitated" on the day
he was killed.
Wyatt recounted that, on the day of the homicide,
he and Crowder spent time together at a friend's
home and then went to Crowder's apartment,
where Crowder cooked dinner. After midnight, as
Wyatt got ready to leave, he asked Crowder about
$200 that Crowder owed him. Crowder became
angry, hit Wyatt in the jaw, and pulled out a gun
and pointed it at Wyatt. Wyatt wrestled the gun
away from Crowder, aimed it at him, and fired
until the gun was out of bullets. Wyatt fled with
the gun, walking from Crowder's apartment near
Oakland's Lake Merritt to a friend's house in
Emeryville. Wyatt threw the gun off of his friend's
balcony, where it was later discovered.
Wyatt pled guilty to voluntary manslaughter and
served 10 years in prison for killing Crowder.
B. Defense Evidence
Defense investigator Kingston Farady testified
that he interviewed Ioma, who told him Nobles
was a kind, gentle, and humble person, but he was
also a "fighter" who "wouldn't take crap from
anyone" and she had seen him become angry and
aggressive. In her testimony at trial, however,
Nobles denied making such statements.

8

Dr. David Howard, a forensic psychologist, opined
that Nobles suffered from schizophrenia. He
explained that schizophrenics can display
aggression and hostility and *8 frequently suffer
from delusions, hallucinations, and speech
disorders. They are more likely than an average
person to be violent and to be the victim of
violence. Although medications can be used to

treat the symptoms of schizophrenia, the
symptoms can reoccur if the patient stops taking
the medications.
Dr. Howard noted that Nobles had numerous
involuntary psychiatric holds and hospitalizations
due to his symptoms. According to medical
records, when Nobles stopped taking his
medication, he would hear voices, his speech and
behavior would become disordered, and he would
exhibit paranoid delusions, inappropriate affect,
fragmented thought processes, impaired speech,
and disturbed sleep. After reviewing a transcript of
Wyatt's interview, Dr. Howard found the
descriptions of Nobles's behavior - constant
words, writing on the floor, kicking, moving
around, and saying nonsensical things - consistent
with psychosis.
The parties stipulated that Nobles had been
convicted of misdemeanor battery in 2002, based
on his assault of a hospital admitting clerk.
C. Verdict and Sentence
The jury found Wyatt guilty of murder in the first
degree and found the weapon enhancement true.
The court found the prior conviction allegation
true and sentenced Wyatt to 56 years to life in
state prison. This appeal followed.

II. DISCUSSION
A. Sufficiency of the Evidence for First-Degree
Murder
Wyatt contends there is no evidence he killed
Nobles with the deliberation and premeditation
required for first degree murder. (See § 189.) We
review for substantial evidence.
" ' "Deliberation" refers to careful weighing of
considerations in forming a course of action;
"premeditation" means thought over in advance.
[Citations]. ' " 'The true test is not the duration of
time as much as it is the extent of the reflection.
Thoughts may follow each other with great

5

People v. Wyatt

9

A144872 (Cal. Ct. App. Apr. 5, 2018)

rapidity and cold, calculated judgment may be
arrived at quickly.' " ' [Citation.]' " (People v.
Casares (2016) 62 Cal.4th 808, 824.) *9

determined in his own mind a reason to kill
Nobles, even if it was not what most people would
consider a good one.

We typically consider three kinds of evidence to
determine whether a finding of deliberation and
premeditation
is
adequately
supported—
preexisting motive, planning activity, and manner
of killing. But these factors "are merely a
framework for appellate review; they need not be
present in some special combination or afforded
special weight, nor are they exhaustive." (People
v. Brady (2010) 50 Cal.4th 547, 561-562.)

2. Manner of Killing

In this case, there was no evidence of planning
activity. There was, however, other evidence that
supported a conclusion of deliberation and
premeditation.
1. Preexisting Motive
In his confession to police, Wyatt explained that
he killed Nobles after hours of Nobles moving,
making noise, babbling incoherently, acting out,
and failing to cease this activity no matter how
many times Wyatt asked. Despite Wyatt ducttaping Nobles's mouth, hands and ankles,
throwing cleaning liquid in his face, telling him to
move out, grabbing him by the shoulders and
shaking him, and punching him twice in the face,
Nobles's "nagging" appeared unstoppable. From
this evidence, the jury could reasonably conclude
that Nobles had become so annoying to Wyatt, and
Wyatt's efforts to quiet him and convince him to
stop or move out had proven so fruitless, that
Wyatt decided he had to kill Nobles in order to get
him to stop.

Evidence indicating that a killing was carried out
in a particular and exacting manner may, in
combination usually with evidence of planning or
motive, support a finding of premeditation and
deliberation. (People v. Anderson (1968) 70
Cal.2d 15, 27.)

10

Here, Wyatt's killing of Nobles was the
culmination of an escalating, hours-long incident,
in which Wyatt had ample time for reflection
before he inflicted the fatal stab *10 wounds. After
binding Nobles with duct tape, throwing cleaning
liquid in his face, grabbing him by the shoulders,
shaking him, and punching him to no avail, Wyatt
picked up the folding knife (it is unclear if he had
to unfold it) and plunged the blade twice into
Nobles's chest. Wyatt conceded that he might have
lost count of how many times he really stabbed
Nobles, and indeed, the coroner observed six
recent stab wounds on Nobles's body. From the
manner in which Wyatt killed Nobles - multiple
stab wounds to the chest - along with Wyatt's
motive for killing him, the jury could reasonably
conclude that Wyatt had weighed the
considerations and decided to end Nobles's life.4
4 Alternatively,

the

jury

could

have

reasonably inferred that Wyatt decided to
kill Nobles when he continued his barrage
of noise and movement as Wyatt tried to
watch the basketball game on Sunday
afternoon, before duct-taping him; if so,

Wyatt acknowledges that Nobles's conduct gave
Wyatt a reason to try to make Nobles stop his
behavior, but he argues it was not a motive for
Wyatt to actually kill him. Whether it was
reasonable for Wyatt to want to kill Nobles under
the circumstances is not the point, however; the
point is that the evidence suggested that Wyatt had

Wyatt's acts of duct-taping, throwing
cleaning liquid in Nobles's face, and
punching Nobles over a span of time could
be viewed as acts of torture leading up to
the fatal stabbing. Acts of torture may
support a conclusion of premeditation and
deliberation. (See People v. Proctor (1992)
4 Cal.4th 499, 529-530.)

3. Wyatt's Actions after the Killing

6

People v. Wyatt

A144872 (Cal. Ct. App. Apr. 5, 2018)

After Wyatt stabbed Nobles at least twice in the
chest, he heard a "poof" of air exit Nobles's lungs
and watched as Nobles collapsed and voided his
bladder and bowels. He did not call 911, either for
medical assistance or to summon the police.
Instead, he waited in the apartment with Nobles's
dead body for approximately 12 hours - until
around 3:00 a.m. when he would less likely be
seen by police or witnesses - and then wheeled the
corpse in a garbage can to the BART tracks and
dumped it. From this evidence, the jury could
reasonably infer that Wyatt's callousness toward
Nobles's body reflected not only his state of mind
after the stabbing, but his state of mind toward
Nobles before and during the stabbing, consistent
with his deliberative decision to end Nobles's life.

homicides, it was permissible for the jury to infer
that Wyatt's killing of Nobles was intended and
premeditated. (Ibid.)5
5 The court also instructed that the evidence

could be considered in deciding whether
Wyatt "had a character for violence and
acted in conformity with such character on
the occasion of the charged incident." That
was because, after the court admitted the
evidence

of

Crowder's

killing

under

Evidence Code section 1101, subdivision
(b), defense counsel introduced evidence of
Nobles's battery conviction, which in turn
permitted the jury to consider the evidence
of Wyatt's killing of Crowder for the
broader purpose of his character for
violence. (See Evid. Code, § 1103.)

11

Based on the evidence of motive, the manner of
the killing, and Wyatt's conduct after Nobles's
death, there was substantial evidence that the
murder of Nobles was perpetrated with
premeditation and deliberation - even without
consideration of the fact that Wyatt had also killed
Crowder in 1995, which we consider next. *11

Respondent argues that, due to the

4. 1995 Homicide

counsel would not have introduced the

The trial court admitted evidence of Wyatt's 1995
homicide of Crowder under Evidence Code
section 1101, subdivision (b) and the doctrine of
chances, and subsequently instructed the jury that,
if it found that Wyatt committed this uncharged
offense, "you may, but are not required to"
consider the evidence for the limited purpose of
deciding whether or not Wyatt "acted with the
specific intent and/or mental state required by the
charged offense or any lesser offense" and whether
Wyatt's explanation for the killing of Nobles was
true. (Italics added. See People v. Steele (2002) 27
Cal.4th 1230, 1244 (Steele).) The court further
instructed the jury to "consider the similarity or
lack of similarity between the uncharged and the
charged offense" in evaluating the evidence. From
the proof that Wyatt perpetrated the two

admission of the evidence under Evidence
Code section 1103, the admission under
Evidence Code section 1101, subdivision
(b) was not erroneous (or was harmless).
Wyatt counters that, had it not been for the
admission of the evidence under Evidence
Code section 1101, subdivision (b), defense
evidence

of

Nobles's

conviction,

so

Evidence Code section 1103 would not
have come into play. We need not and do
not rely on Evidence Code section 1103 to
resolve the appeal.

12

Wyatt insists there was no evidence that the killing
of Crowder or the killing of Nobles was
premeditated, so the combination of those two
killings cannot support a finding that the killing of
Nobles was premeditated because "[t]he sum of
zeroes is always zero." (Quoting People v. Haston
(1968) 69 Cal.2d 233, 246, fn.15 (Haston).) Our
Supreme Court held otherwise in Steele, as we
discuss further in the context of the admissibility
of the evidence, post. (Steele, supra, 27 Cal.4th at
pp. 1244-1245.) *12 Haston - which preceded
Steele by over three decades - is plainly
inapposite.6 And as discussed ante, Wyatt is

7

People v. Wyatt

A144872 (Cal. Ct. App. Apr. 5, 2018)

incorrect in his assumption that there was no other
evidence of Wyatt's premeditation in killing
Nobles.
6 In Haston, the court observed that the

existence of marks common to the charged
and uncharged crimes might not be
sufficient to be admissible on the issue of
identity if the marks were not distinctive,
as where the robber in both crimes wore
trousers and had two ears. (Haston, supra,
69 Cal.2d at p. 246, fn. 15.) Here, by
contrast, the evidence of the two killings
was

intent

and

deliberation,

offered

inferences

requiring

less

similarity

between

the

Furthermore,

to

as

show

discussed

crimes.
post,

the

similarities between the killing of Crowder
and the killing of Nobles were sufficiently
distinctive.

5. Wyatt's Arguments Regarding Premeditation
and Deliberation
Wyatt insists that the evidence showed he did not
act with premeditation and deliberation. In his
view, he tried "low-level physical efforts to stop"
Nobles's disruptions, which led to Nobles charging
Wyatt to kick and slap him; immediately before
the homicide, Nobles "attacked again," "snapped"
"in a rage," and was swinging his hands and trying
to grab Wyatt; and Wyatt reacted in a state of
"panic" and "rage" by grabbing the knife and
stabbing Nobles twice, trying thereafter to revive
him. But even if the evidence was reasonably
subject to an inference that Wyatt did not
premeditate or deliberate, it was also reasonably
subject to an inference that he did, choosing to end
Nobles's nagging once and for all by stabbing him
repeatedly in the chest until he was dead. It is not
our role to reweigh the evidence or choose
between permissible inferences; we merely
determine whether there was substantial evidence
to support the jury's verdict, and in this case there
was.

13

Wyatt told the police he did not premeditate the
killing and claimed he acted "out of the heat of
rage." The jury, however, did not have to believe
Wyatt's self-serving depictions of his mental state.
To the contrary, the jury could have reasonably
concluded that Wyatt's use of a legalistic phrase
such as "out of the heat of rage" was a
disingenuous attempt to minimize his crime, and
that Wyatt's story was so similar to the one he
gave police with respect to killing Crowder - a
good relationship with his victim until the victim
suddenly lashed out - that he lied to police about
his mental state in *13 killing Nobles to obtain a
deal based on a non-malice killing like he received
with respect to Crowder. The jury heard the
audiotape of Wyatt's confession, and it was for the
jury to determine the credibility of Wyatt's
assertions.
Wyatt argues that, if the jury did not believe him,
there was "no evidence of what happened" and
therefore no evidence of first degree murder. Not
so. The jury could have rejected Wyatt's depiction
of his state of mind, while accepting his depiction
of what occurred to the extent it was consistent
with the physical evidence. From the evidence of
what occurred, the jury could reasonably conclude
that, contrary to Wyatt's claims, Wyatt killed
Nobles with deliberation and premeditation.
Wyatt contends the jury should have believed him,
because his account of the killing of Nobles was
borne out by the evidence: his description of the
punches he threw to Nobles's jaw and eye
corresponded to Detective Armijo's observation of
those injuries; his description of stabbing Nobles
twice in the chest corresponded with Dr. Rogers's
testimony that the fatal wounds were two stab
wounds to the same area of the chest; and his
description of Nobles's disruptive behavior was
consistent with Dr. Howard's testimony of the
symptoms Nobles exhibited as a schizophrenic.
But that's the point: the jury could have accepted
Wyatt's version of what happened to the extent

8

People v. Wyatt

14

A144872 (Cal. Ct. App. Apr. 5, 2018)

consistent with other testimony, but concluded that
these events and the other evidence demonstrated
his premeditation and deliberation.

the incident in a manner substantially identical to
the testimony later given by Sergeant Politzer, set
forth ante.

Wyatt fails to establish that the evidence was
insufficient for first degree murder.7 *14

The trial court ruled that the evidence was
admissible under section 1101(b) to prove Wyatt's
intent and premeditation, relying on Steele and the
doctrine of chances. The court noted the
similarities between the two homicides and
rejected Wyatt's argument that the killing of
Crowder was not probative because it was not
itself a premeditated killing. The court also found
that, in light of the similarity between the two
killings, the evidence of the 1995 homicide was
not overly inflammatory and was not precluded by
Evidence Code section 352.

7 Wyatt contends in his reply brief that we

should not consider a factual theory the
prosecutor never argued. The theories we
acknowledge here, however, are entirely
consistent with the prosecutor's contentions
in

closing

argument.

The

prosecutor

asserted that first degree murder required
willfulness,

premeditation,

and

deliberation, explained how his prior
depictions of Wyatt's express malice
satisfied the elements of willfulness and

2. Section 1101(b)

premeditation, and argued there was
evidence of deliberation in Wyatt's decision

Subdivision (a) of Evidence Code section 1101
precludes the use of evidence of a defendant's
character, including a prior bad act, to prove that
the defendant acted in conformity with that
character on the occasion of the charged crime.
Section 1101(b) clarifies, however, that evidence
of a prior bad act may be admitted to establish
some relevant fact other than the person's
character or predisposition, such as the defendant's
mental state. (People v. Ewoldt (1994) 7 Cal.4th
380, 393, 399.)

to kill Nobles in beating him up, picking up
a knife, stabbing him in the "lungs," and
opting not to summon help for him. The
prosecutor specifically stated that "[t]he
evidence is there for first degree murder,
just like I've explained it to you." --------

B. Admission of Evidence of the 1995 Homicide
of Crowder
Wyatt contends the court erred in admitting
evidence of his voluntary manslaughter conviction
for killing Crowder under Evidence Code section
1101, subdivision (b) (section 1101(b)) and the
doctrine of chances. Although there was sufficient
evidence of premeditation and deliberation to
uphold the first degree murder conviction even
without the evidence of the killing of Crowder, we
will consider the propriety of this evidence in case
it had any effect on the trial.
1. Background
Before trial, the prosecutor sought an order that
evidence of Wyatt's 1995 homicide of Crowder
would be admitted under section 1101(b). In
opposing the motion, defense counsel described

15

More specifically, evidence is admissible under
section 1101(b) if the charged and uncharged
crimes are sufficiently similar to support a rational
inference of identity, common design or plan, or
intent. (Ewoldt, supra, 7 Cal.4th at pp. 402-403.)
Of these *15 three potential inferences, the least
degree of similarity between crimes is needed to
show intent. (Id. at pp. 402-403.) Thus, " 'if a
person acts similarly in similar situations, he
probably harbors the same intent in each instance'
[citations], and . . . such prior conduct may be
relevant circumstantial evidence of the actor's
most recent intent." (People v. Robbins (1988) 45
Cal.3d 867, 879.)

9

People v. Wyatt

A144872 (Cal. Ct. App. Apr. 5, 2018)

In Steele, supra, the defendant was charged with
the stabbing murder of his female victim. At trial,
the only question was whether he acted with
premeditation. The trial court admitted evidence
that the defendant was previously convicted of
second degree murder for stabbing another
woman. Our Supreme Court found no abuse of
discretion, noting the similarities between the two
crimes: the victims somewhat resembled each
other; the defendant manually strangled the
victims before he stabbed them; he inflicted eight
stab wounds in the chest or abdomen of each
victim; and he admitted the killings but supplied
an explanation (mescaline in one case, drinking
and hearing a helicopter in the other). (Steele,
supra, 27 Cal.4th at p. 1244.) The Supreme Court
explained that "the doctrine of chances teaches
that the more often one does something, the more
likely that something was intended, and even
premeditated, rather than accidental or
spontaneous. Specifically, the more often one
kills, especially under similar circumstances, the
more reasonable the inference the killing was
intended and premeditated." (Ibid.)
a. Wyatt's Two
Circumstances

Homicides

Had

Similar

Wyatt's homicide of Crowder and his homicide of
Nobles were similar in several respects. First, in
both cases, Wyatt's victims were AfricanAmerican men who suffered from serious medical
conditions. Crowder was HIV positive and lived
in a care home for men suffering from HIV-related
medical issues; Nobles had a documented history
of mental illness.

16

Second, both homicides occurred inside the
victim's residence, where Wyatt spent substantial
time. Although Wyatt claimed he was not living
with Crowder, Wyatt's mail and photographs were
found in a bedroom drawer, suggesting he spent
enough time there to store some personal
belongings; Wyatt was Nobles's roommate. *16

Third, Wyatt claimed he generally had a good
relationship with both victims, but the victims
became agitated on the day of the homicide and
engaged in sudden actions that led Wyatt to kill
them. Crowder supposedly pulled a gun on Wyatt
when asked about repayment of a loan; Nobles
supposedly "snapped" after Wyatt tried to get
Nobles to stop his annoying behavior.
Fourth, although Wyatt used a different weapon to
kill Crowder and Nobles, in both cases he reached
for a murder weapon that was close at hand.
Fifth, in both cases Wyatt made no attempt to seek
medical assistance for his victim or alert police to
his allegedly justified acts. Instead, he fled and
attempted to conceal evidence of his crimes. After
killing Crowder, he left the apartment where the
killing occurred and threw the gun over a balcony;
after killing Nobles, he dumped the body, burned
evidence, threw the knife into a gutter, and left the
apartment where the killing occurred.
Sixth, in both cases, Wyatt initially denied
responsibility but later confessed while blaming
his victim. Wyatt claimed Crowder pulled out a
gun and aimed it at him; Wyatt claimed Nobles
kept up his noise and movements and kicked and
grabbed at him.
Collectively, there was a sufficiently high degree
of similarity between the two killings to justify the
admission of the Crowder homicide evidence
under section 1101(b).
Wyatt attempts to minimize these similarities,
arguing it is "hardly surprising" the victims were
African-Americans he knew well, since Wyatt was
an African-American; the fact that Wyatt spent a
lot of time with his victims and tried to conceal
the killings is too generic; Wyatt's killing of
Nobles did not occur in a living room, since Wyatt
lived in a studio apartment; and Crowder, although
a resident of an HIV care home, was not
particularly vulnerable because he had a gun.
Wyatt also contends there were differences
between the two homicides: for example, Crowder

10

People v. Wyatt

17

A144872 (Cal. Ct. App. Apr. 5, 2018)

was not killed at Wyatt's home, Crowder used a
weapon first, and Crowder was killed by a gun
rather than a knife. However, the charged and
uncharged crimes do not have to be identical for
evidence of the uncharged crime to be admissible
under section 1101(b). (See Ewoldt, supra, 7
Cal.4th at p. 402.) Wyatt fails to show an abuse of
discretion. *17

maintained it was an accident, she was never
prosecuted for it, and her state of mind may have
been " 'wholly innocent' "].)
c. The 1995 Homicide Did Not Have to Be
Premeditated
Wyatt contends that because he was convicted of
the voluntary manslaughter of Crowder, rather
than a malice murder requiring premeditation, the
homicide of Crowder was not probative of his
intent and premeditation in this case.

b. Wyatt's Reliance on Federal Cases is Misplaced
Wyatt relies on three federal court cases to argue
that the evidence of the Crowder killing was
inadmissible. (United States v. Levario Quiroz
(5th Cir. 1988) 854 F.2d 69; State v. Elmer (D.
Ariz. 1993) 815 F.Supp. 319; United States v.
70… Greyeyes (9th Cir. 1991) No. 89-10605 *70733
(unpublished).)
Wyatt's reliance on these cases is misplaced.
Federal decisions are not binding on this court.
(People v. Williams (2013) 56 Cal.4th 630, 668.)
None of the cases addressed Steele, section
1101(b), or the California law of the doctrine of
chances. Moreover, all of the cases are
distinguishable on their facts. (Levario Quiroz,
supra, 854 F.2d at pp. 70-73 [defendant, charged
with shooting at a border patrol agent, claimed he
fired in self-defense after the agent fired first;
evidence that the defendant claimed to have acted
in self-defense in an earlier shooting was
inadmissible because it happened in a different
type of setting and appeared to involve a dispute
over a woman]; Elmer, supra, 815 F.Supp. at pp.
320-323 [border patrol agent, charged with
unlawfully shooting at people trying to cross the
border, asserted that he acted in self-defense;
evidence that the agent had claimed self-defense
in another similar shooting was inadmissible
where he had been acquitted of all wrongdoing in
the earlier shooting and the two incidents were
only superficially similar]; United States v.
Greyeyes, supra, 1991 WL 70733 [where wife was
charged with killing her husband by running over
him with a car, a prior incident in which she struck
her husband with a car was inadmissible since she

18

Our Supreme Court rejected a similar argument in
Steele: "[T]he doctrine of chances is based on a
combination of similar events. . . . The fact that
defendant killed twice under similar circumstances
is logically probative of whether the second killing
*18 was premeditated even if no independent
evidence existed that the first killing was itself
premeditated." (Steele, supra, 27 Cal.4th at pp.
1244-1245. Italics added.) Although the
conviction for killing Crowder was voluntary
manslaughter and not a malice murder, it was not
an accidental killing. The combination of the two
killings, under similar circumstances, was
probative of whether the killing of Nobles was
premeditated.
3. Evidence Code Section 352
Wyatt contends the evidence of his killing
Crowder should have been excluded under
Evidence Code section 352 because there was no
substantial showing of probative value. (Citing
People v. Sam (1969) 71 Cal.2d 194, 206.) As
stated ante, however, the evidence had substantial
probative value as to Wyatt's premeditation and
intent in killing Nobles. The court did not abuse
its discretion in admitting the evidence.
C. Preliminary Factual Finding
Under Evidence Code section 403, subdivision
(a), evidence is inadmissible unless the court finds
there is evidence sufficient to sustain a finding of
the existence of a preliminary fact required for its
admission, such as relevance, personal knowledge,

11

People v. Wyatt

A144872 (Cal. Ct. App. Apr. 5, 2018)

or authentication. The court "[m]ay, and on
request shall, instruct the jury to determine
whether the preliminary fact exists and to
disregard the proffered evidence unless the jury
finds that the preliminary fact does exist." (Evid.
Code, § 403, subd. (c)(1).) Here, the trial court
instructed the jury that it had to determine whether
the prosecution proved that Wyatt killed Crowder
and, if not, it had to disregard the evidence. The
court also instructed the jury that, in evaluating the
evidence, it should consider the "similarity or lack
of similarity" between the two homicides.

admissible, and the trial court's jury instruction
was deficient in failing to acknowledge the issue.
(Id. at pp. 130-131.)
Simon is inapposite. There, the previous non-fatal
assault was not relevant unless it was motivated
by jealousy; here, Wyatt's killing of Crowder was
relevant regardless of Wyatt's motivation, and
regardless of whether it was a malice murder or
another form of homicide. The probative value of
the Crowder homicide arises from the fact that
Wyatt killed two people under sufficiently similar
circumstances, which could warrant a finding that
the killing of Nobles was intentional and
premeditated. (Steele, supra, 27 Cal.4th at pp.
1244-1245; see also People v. Carpenter (1997)
15 Cal.4th 312, 383 [evidence of other crimes was
admissible on the issue of intent, because the more
often the defendant killed and raped the more
likely he intended and premeditated the result he
achieved; this "simple logic required no complex
instructions," and Simon was inapposite because it
involved a prior nonfatal assault, not an actual
killing].) Wyatt fails to demonstrate error.

Wyatt contends the trial court should have also
instructed the jury, pursuant to Evidence Code
section 403, that the jury had to make a
preliminary factual finding that Wyatt's killing of
Crowder was a malice murder before it could use
the evidence to determine Wyatt had committed
first degree murder. He is incorrect.

19

Wyatt relies on People v. Simon (1986) 184
Cal.App.3d 125 (Simon). There, the defendant had
shot and killed a man at his girlfriend's apartment.
The prosecutor contended that the defendant killed
the man out of jealousy, while the defendant *19
contended the man pointed a gun at him and the
killing was in self-defense. (Id. at p. 127.) The
prosecution introduced evidence that Simon had
previously pulled a gun on another man (Ashton)
at Simon's girlfriend's apartment; the girlfriend
previously told police she was having an affair
with Ashton, but both she and the defendant
testified at trial that he was selling drugs to her.
(Id. at pp. 128-129.) On appeal, the court ruled
that, if the assault on Ashton was motivated by
jealousy, it would be sufficiently similar to the
charged crime to be admissible on the issue of
self-defense; but if the assault on Ashton was
motivated by Simon's desire to keep his girlfriend
away from drug dealers, the prior incident would
not be relevant. Thus, Simon's motive in
assaulting Ashton was a critical preliminary
factual issue which should have been resolved
before the Ashton incident was deemed

D. Refusal of Self-Defense and Imperfect SelfDefense Instructions

20

Defense counsel asked the trial court to instruct
the jury with CALCRIM No. 505 (self-defense)
and CALCRIM No. 571 (unreasonable or
imperfect self-defense). Relying on testimony
from Dr. Howard that Nobles was suffering a
psychotic break, and on Wyatt's statement to
police that Nobles "snapped," defense counsel
argued that Wyatt acted in self-defense because he
reasonably believed he was in imminent danger.
*20 Counsel also argued that Wyatt acted in
unreasonable self-defense because his statement to
police demonstrated that he was in actual fear,
even if such a fear was unreasonable.
The trial court declined to give the requested
instructions, observing that Wyatt had not
indicated in his statement to police that he actually
believed Nobles posed a danger to him. Wyatt
contends the court erred.

12

People v. Wyatt

A144872 (Cal. Ct. App. Apr. 5, 2018)

1. Self-Defense and Imperfect Self-Defense
Under the doctrine of self-defense, a defendant
who killed his victim with an actual and
reasonable belief that killing was necessary to
avert an imminent threat of death or great bodily
injury has a complete justification for the killing.
(E.g., People v. Elmore (2014) 59 Cal.4th 121,
133-134 (Elmore).)
Under the doctrine of imperfect self-defense, a
defendant who killed with an actual but
unreasonable belief that the killing was necessary
to avert an imminent threat of death or great
bodily injury has no defense for the killing, but
because the defendant has not harbored malice, he
or she has committed only voluntary manslaughter
rather than murder. (Elmore, supra, 59 Cal.4th at
p. 134.)
When a defendant is charged with murder, a trial
court has a sua sponte duty to instruct on selfdefense when "it appears that the defendant is
relying on such a defense, or if there is substantial
evidence supportive of such a defense and the
defense is not inconsistent with the defendant's
theory of the case." (People v. Sedeno (1974) 10
Cal.3d 703, 716, overruled on other grounds in
People v. Breverman (1998) 19 Cal.4th 142, 165.)
Similarly, the court has a sua sponte duty to
instruct on imperfect self-defense if the "evidence
is such that a jury could reasonably conclude that
the defendant killed the victim in the unreasonable
but good faith belief in having to act in selfdefense." (People v. Barton (1995) 12 Cal.4th 186,
200-201.)
2. Application

21

No evidence supported Wyatt's claim of selfdefense, because there was no evidence that any
belief he had of being in danger of imminent harm
was reasonable. Nobles did not have a weapon,
and although he approached in a "rage," he was
merely "doin' his little strikin' and you know,
kickin'," and "tryin' to swing and tryin' to grab."
*21 There was no evidence of any significant force

in Nobles's attempted blows, or any reasonable
basis for believing that Nobles was about to cause
Wyatt great bodily injury.
Furthermore, no evidence supported Wyatt's claim
of self-defense or imperfect self-defense, because
there was no evidence that Wyatt had any actual
belief, reasonable or not, that he was in danger of
imminent harm. Wyatt repeatedly told officers that
Nobles did not have a weapon and that Nobles had
not threatened him. Although Wyatt claimed he
"felt threatened" at the particular moment when
Nobles "snapped," there was no evidence that
Wyatt believed he was in imminent threat of death
or great bodily injury. To the contrary, when asked
"what about his behavior" of Nobles made him
feel threatened, Wyatt said that Nobles was
"unstoppable" in his "noise, talking and rambling
and . . . writing on the floor." (Italics added.)
Wyatt insisted that Nobles never approached him
in a threatening manner, never threatened him
verbally, and "was never a threatening person."
Finally, Wyatt was not entitled to an instruction on
self-defense or imperfect self-defense because he
was the initial aggressor in the fight. (In re
Christian S. (1994) 7 Cal.4th 768, 773 fn. 1
[neither self-defense nor imperfect self-defense
may be invoked by a defendant who by wrongful
conduct such as initiation of a physical assault has
created circumstances under which his adversary's
attack is legally justified].) Although Wyatt
stabbed Nobles to death after Nobles approached
him and kicked and slapped him, that occurred
only after Wyatt had bound Nobles with duct tape,
taped over his mouth, put a mattress over him, and
threw cleaning solution into his face. Indeed,
Wyatt agreed in his interview with police that
Nobles's kicking and slapping, before Wyatt
punched him, was Nobles defending himself
against Wyatt.
Wyatt contends his acts of binding Nobles with
duct tape and throwing a cleaning solution at him
were lawful attempts to resist Nobles's
misdemeanor offense of disturbing the peace. (See

13

People v. Wyatt

22

A144872 (Cal. Ct. App. Apr. 5, 2018)

Pen. Code, § 415, subd. (2); § 693.) But Penal
Code section 693 only allows "[r]esistance
sufficient to prevent the offense." Wyatt's binding
Nobles with duct tape, dousing him with a
cleaning solution, and other acts were more than
that. *22
Wyatt also argues that he was not the initial
aggressor because, before Wyatt bound him with
duct tape, Nobles had made noise for hours. But
he provides no authority that Nobles's level of
disruption made him the initial aggressor in their
fight. In fact, Wyatt characterized Nobles's
behavior as "nagging" and conceded that others
might consider it petty.
D. Prosecutor's Closing Argument
Wyatt contends the prosecutor committed
misconduct by describing voluntary manslaughter
as "murder with an excuse" during closing
argument.
1. Prosecutor's Statements
Discussing the requirements for conviction of
murder and the lesser included offense of
voluntary manslaughter, the prosecutor argued:
"Voluntary manslaughter is murder with an
excuse. . . [y]ou have malice whether express or
implied. But for voluntary manslaughter you have
something else that's going on. There's an excuse,
a partial excuse that society is prepared to
recognize that negates the malice and lowers the
seriousness of the charge for murder to
manslaughter. [¶] So what is this that's going on
that you're going to be told about? Heat of
passion, members of the jury. In order to find that
the malice for murder is negated and society is
going to partially excuse what the defendant did,
you have to consider that the defendant was
provoked by the victim and as a result of the
provocation the defendant acted rashly and under
the influence of intense emotion that obscured his
reasoning or judgment. [¶] In addition to that you
have to find that the provocation would have
caused a person of average disposition to act

rashly and without due deliberation from passion
rather than from judgment. Those are the legal
words that define voluntary manslaughter that you
will hear from the Judge at the conclusion of our
presentation." (Italics added.)

23

The prosecutor gave examples of adequate
provocation, such as where a father attacks a
person he saw molesting his child. The prosecutor
also gave examples of inadequate provocation,
such as someone taking the last item off a grocery
store shelf or cutting a person off in traffic. *23
In addition, the prosecutor used a PowerPoint
slide outlining these principles, which explained
that voluntary manslaughter was a killing with
malice aforethought, "BUT there is an excuse that
negates the malice."
Defense counsel objected to the prosecutor's
argument, stating it was "glib." The court
overruled the objection, finding nothing
inappropriate in the content or tone of the
prosecutor's remarks.
2. Legal Standard
In determining whether a prosecutor's statements
to the jury constitute misconduct, " 'the question is
whether there is a reasonable likelihood that the
jury construed or applied any of the complained-of
remarks in an objectionable fashion.' " (People v.
Cunningham (2001) 25 Cal.4th 926, 1001.) A
prosecutor's improper comments violate the
federal Constitution if they infect the trial with
such unfairness as to make the conviction a denial
of due process. (Id. at p. 1000.) Comments that do
not violate the federal Constitution may still
violate state law if they involve the use of
deceptive or reprehensible methods to attempt to
persuade the court or the jury. (Ibid.)
3. Application
There is no reasonable likelihood that the jury
understood the prosecutor's comments in an
objectionable fashion. In saying that manslaughter
was "murder with an excuse . . . a partial excuse

14

People v. Wyatt

24

A144872 (Cal. Ct. App. Apr. 5, 2018)

that society is prepared to recognize that negates
the malice and lowers the seriousness of the
charge for murder to manslaughter," the
prosecutor was not saying that manslaughter was
murder, but that a killing which would constitute
murder if committed with malice is deemed to be
only manslaughter if it was in response to
sufficient provocation and, therefore, without
malice. (Italics added.) That is indeed the law:
"Manslaughter is an unlawful killing without
malice, the element necessary for the greater
offense of murder. . . . [P]rovocation . . .
mitigate[s] the offense by negating the murder
element of malice, and thus limit[s] the crime to
manslaughter." (People v. Rios (2000) 23 Cal.4th
450, 454.) Moreover, the prosecutor's statement
was consistent with the law as instructed by the
court, which informed the jury of the elements of
murder and that "[p]rovocation may . . . reduce a
murder to manslaughter," and "[a] *24 killing that
would otherwise be murder is reduced to
voluntary manslaughter if the defendant killed
someone because of a sudden quarrel or in the
heat of passion," as when the "defendant was
provoked" (under specified circumstances). (See
CALCRIM Nos. 521, 522, 570.) While it is
technically true that provocation or the absence of
malice is not a legal "excuse" for murder - in the
sense of a justification or complete defense - the
upshot of the prosecutor's comment was correct: if
the jury found that Wyatt acted upon sufficient
provocation that he did not act with malice, the
jury should find him guilty of manslaughter rather
than murder.
Wyatt argues that by casting voluntary
manslaughter as murder with an "excuse," the
prosecutor shifted the burden of proof because he
implied that Wyatt had to provide an "excuse" as
to why the homicide was not murder, even though
it is the prosecution's burden to prove the absence
of provocation to obtain a murder conviction. The
argument is meritless. The prosecutor never stated
that Wyatt had the burden of proving an excuse or
provocation, and the jury was never instructed to

that effect. Although Wyatt contends an "excuse"
must be proven by the party asserting it under
Evidence Code section 115, the jury was never
instructed with Evidence Code section 115. To the
contrary, the court instructed the jury, pursuant to
CALCRIM No. 570, that the prosecutor had the
burden of proving the absence of provocation:
"The People have the burden of proving beyond a
reasonable doubt that the defendant did not kill as
the result of a sudden quarrel or in the heat of
passion. If the People have not met this burden,
you must find the defendant not guilty of murder."

25

Wyatt also argues that the prosecutor trivialized
the crime of voluntary manslaughter by
analogizing it to annoyances during shopping and
driving, thereby discouraging the jury from
finding Wyatt guilty of manslaughter rather than
murder. Not so. The prosecutor used the analogies
to explain what was not sufficient provocation to
kill and what therefore would not provide a basis
for voluntary manslaughter. Wyatt fails to
demonstrate error. *25
E. Cumulative Error
Because Wyatt fails to establish that the trial court
committed any error, he is not entitled to relief
based on any cumulative effect of the prejudice of
errors. He fails to establish any basis for a
reversal.

III. DISPOSITION
26

The judgment is affirmed. *26
/s/_________
NEEDHAM, J. We concur. /s/_________
JONES, P.J. /s/_________
SIMONS, J.

15

People v. Wyatt

A144872 (Cal. Ct. App. Apr. 5, 2018)

16

